<html>
<title> - EXAMINING ISSUES FOR HAZARDOUS MATERIALS REAUTHORIZATION</title>
<body><pre>[House Hearing, 113 Congress]
[From the U.S. Government Publishing Office]



 
        EXAMINING ISSUES FOR HAZARDOUS MATERIALS REAUTHORIZATION 

=======================================================================

                                (113-63)

                                HEARING

                               BEFORE THE

                            SUBCOMMITTEE ON
                       RAILROADS, PIPELINES, AND
                          HAZARDOUS MATERIALS

                                 OF THE

                              COMMITTEE ON
                   TRANSPORTATION AND INFRASTRUCTURE
                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED THIRTEENTH CONGRESS

                             SECOND SESSION

                               __________

                             APRIL 2, 2014

                               __________

                       Printed for the use of the
             Committee on Transportation and Infrastructure
         Available online at: http://www.gpo.gov/fdsys/browse/
        committee.action?chamber=house&committee=transportation

                               ----------

                         U.S. GOVERNMENT PRINTING OFFICE 

87-432 PDF                       WASHINGTON : 2014 
-----------------------------------------------------------------------
  For sale by the Superintendent of Documents, U.S. Government Printing 
  Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
         DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
                          Washington, DC 20402-0001



             COMMITTEE ON TRANSPORTATION AND INFRASTRUCTURE

                  BILL SHUSTER, Pennsylvania, Chairman
DON YOUNG, Alaska                    NICK J. RAHALL, II, West Virginia
THOMAS E. PETRI, Wisconsin           PETER A. DeFAZIO, Oregon
HOWARD COBLE, North Carolina         ELEANOR HOLMES NORTON, District of 
JOHN J. DUNCAN, Jr., Tennessee,          Columbia
  Vice Chair                         JERROLD NADLER, New York
JOHN L. MICA, Florida                CORRINE BROWN, Florida
FRANK A. LoBIONDO, New Jersey        EDDIE BERNICE JOHNSON, Texas
GARY G. MILLER, California           ELIJAH E. CUMMINGS, Maryland
SAM GRAVES, Missouri                 RICK LARSEN, Washington
SHELLEY MOORE CAPITO, West Virginia  MICHAEL E. CAPUANO, Massachusetts
CANDICE S. MILLER, Michigan          TIMOTHY H. BISHOP, New York
DUNCAN HUNTER, California            MICHAEL H. MICHAUD, Maine
ERIC A. ``RICK'' CRAWFORD, Arkansas  GRACE F. NAPOLITANO, California
LOU BARLETTA, Pennsylvania           DANIEL LIPINSKI, Illinois
BLAKE FARENTHOLD, Texas              TIMOTHY J. WALZ, Minnesota
LARRY BUCSHON, Indiana               STEVE COHEN, Tennessee
BOB GIBBS, Ohio                      ALBIO SIRES, New Jersey
PATRICK MEEHAN, Pennsylvania         DONNA F. EDWARDS, Maryland
RICHARD L. HANNA, New York           JOHN GARAMENDI, California
DANIEL WEBSTER, Florida              ANDRE CARSON, Indiana
STEVE SOUTHERLAND, II, Florida       JANICE HAHN, California
JEFF DENHAM, California              RICHARD M. NOLAN, Minnesota
REID J. RIBBLE, Wisconsin            ANN KIRKPATRICK, Arizona
THOMAS MASSIE, Kentucky              DINA TITUS, Nevada
STEVE DAINES, Montana                SEAN PATRICK MALONEY, New York
TOM RICE, South Carolina             ELIZABETH H. ESTY, Connecticut
MARKWAYNE MULLIN, Oklahoma           LOIS FRANKEL, Florida
ROGER WILLIAMS, Texas                CHERI BUSTOS, Illinois
MARK MEADOWS, North Carolina
SCOTT PERRY, Pennsylvania
RODNEY DAVIS, Illinois
MARK SANFORD, South Carolina
DAVID W. JOLLY, Florida
                                ------                                

     Subcommittee on Railroads, Pipelines, and Hazardous Materials

                   JEFF DENHAM, California, Chairman
JOHN J. DUNCAN, Jr., Tennessee       CORRINE BROWN, Florida
JOHN L. MICA, Florida                DANIEL LIPINSKI, Illinois
GARY G. MILLER, California           JERROLD NADLER, New York
SAM GRAVES, Missouri                 ELIJAH E. CUMMINGS, Maryland
SHELLEY MOORE CAPITO, West Virginia  MICHAEL H. MICHAUD, Maine
CANDICE S. MILLER, Michigan          GRACE F. NAPOLITANO, California
LOU BARLETTA, Pennsylvania           TIMOTHY J. WALZ, Minnesota
LARRY BUCSHON, Indiana               ALBIO SIRES, New Jersey
BOB GIBBS, Ohio                      JANICE HAHN, California
PATRICK MEEHAN, Pennsylvania         ANN KIRKPATRICK, Arizona
RICHARD L. HANNA, New York, Vice     ELIZABETH H. ESTY, Connecticut
    Chair                            PETER A. DeFAZIO, Oregon
DANIEL WEBSTER, Florida              MICHAEL E. CAPUANO, Massachusetts
THOMAS MASSIE, Kentucky              NICK J. RAHALL, II, West Virginia
ROGER WILLIAMS, Texas                  (Ex Officio)
SCOTT PERRY, Pennsylvania
BILL SHUSTER, Pennsylvania (Ex 
    Officio)
VACANCY



                                CONTENTS

                                                                   Page

Summary of Subject Matter........................................     v

                               TESTIMONY

Hon. Cynthia L. Quarterman, Administrator, Pipeline and Hazardous 
  Materials Safety Administration................................     8
William F. Downey, executive vice president for corporate affairs 
  and chief security officer, The Kenan Advantage Group, Inc., on 
  behalf of the American Trucking Associations...................     8
Thomas E. Schick, senior director of distribution, Regulatory and 
  Technical Affairs, American Chemistry Council..................     8
Stephen Pelkey, chairman, Transportation Committee, American 
  Pyrotechnics Association.......................................     8
Elizabeth M. Harman, assistant to the general president for 
  hazardous materials, weapons of mass destruction training, and 
  grants administration, International Association of Fire 
  Fighters.......................................................     8

 PREPARED STATEMENTS AND ANSWERS TO QUESTIONS FOR THE RECORD SUBMITTED 
                              BY WITNESSES

Hon. Cynthia L. Quarterman:
    Prepared statement...........................................    39
    Answers to questions for the record from the following 
      Representatives:

        Hon. Jeff Denham, of California..........................    47
        Hon. Janice Hahn, of California..........................    50
William F. Downey, prepared statement............................    53
Thomas E. Schick:
    Prepared statement...........................................    58
    Answers to questions for the record from Hon. Janice Hahn, of 
      California.................................................    62
Stephen Pelkey:
    Prepared statement...........................................    64
    Answers to questions for the record from the following 
      Representatives:

        Hon. Jeff Denham, of California..........................    71
        Hon. Janice Hahn, of California..........................    76
Elizabeth M. Harman, prepared statement..........................    77

                       SUBMISSIONS FOR THE RECORD

Hon. Corrine Brown, a Representative in Congress from the State 
  of Florida, request to submit a list of issues surrounding the 
  movement of hazardous materials compiled by the following rail 
  organizations: ATDA, BLET, BMWED, BRS, IAM, IBEW, TCU and TCU 
  Carmen, IBT Teamsters, TWU, and SMART--Transportation Division.     4
Hon. Cynthia L. Quarterman, Administrator, Pipeline and Hazardous 
  Materials Safety Administration, responses to requests for 
  information from the following Representatives:

    Hon. Grace F. Napolitano, of California, regarding the safety 
      and security of toxic gas shipments........................    23
    Hon. Corrine Brown, of Florida, regarding testing information 
      that PHMSA has requested of the American Petroleum 
      Institute..................................................    33
    Hon. Elijah E. Cummings, of Maryland, regarding PHMSA's 
      assessment of penalties over the past decade...............    38

                        ADDITIONS TO THE RECORD

Air Line Pilots Association, International, written testimony....    84
John P. Tolman, vice president and national legislative 
  representative, Brotherhood of Locomotive Engineers and 
  Trainmen, written testimony....................................    93
Commercial Vehicle Safety Alliance, written testimony............    97
Cynthia Hilton, executive vice president, Institute of Makers of 
  Explosives, written testimony..................................   100
LaMont Byrd, director, Safety and Health Department, 
  International Brotherhood of Teamsters, written testimony......   107

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

        EXAMINING ISSUES FOR HAZARDOUS MATERIALS REAUTHORIZATION

                              ----------                              


                        WEDNESDAY, APRIL 2, 2014

                  House of Representatives,
              Subcommittee on Railroads, Pipelines,
                           and Hazardous Materials,
            Committee on Transportation and Infrastructure,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 2:15 p.m. in 
Room 2167, Rayburn House Office Building, Hon. Jeff Denham 
(Chairman of the subcommittee) presiding.
    Mr. Denham. The subcommittee will come to order. Before we 
begin, I have an administrative item to cover. I would like to 
ask unanimous consent that former chairman, Don Young, and 
Representative Rick Larsen be permitted to join the 
subcommittee for today's hearing, and ask questions.
    [No response.]
    Mr. Denham. Without objection, so ordered. Well, good 
afternoon, and welcome to the Subcommittee on Railroads, 
Pipelines, and Hazardous Materials. Our hearing today will 
focus on reauthorizing of the Hazardous Materials Safety 
Program of the Pipeline and Hazardous Materials Safety 
Administration, PHMSA. The current authorization was part of 
MAP-21, which expires October 1, 2014.
    Our goal is to continue the advances made by MAP-21 in 
reducing regulatory burdens while ensuring hazardous materials 
are transported in a safe and efficient manner. We have a 
distinguished panel of witnesses today, and it is my pleasure 
to welcome back once again Ms. Cynthia Quarterman, 
Administrator of PHMSA, as well as--as you know, the 
Transportation Committee is working on a reauthorization of 
MAP-21, and I am proud that Chairman Shuster's leadership on 
the committee is looking at addressing a wide variety of 
transportation needs, including the reauthorization of the 
Hazardous Materials Safety Program. So, I look forward to the 
testimony and discussion today, as we move forward in that 
process.
    The movement of hazardous materials in commerce is integral 
to our Nation's health and economy. Hazmats include common, 
everyday products like paints, fuels, fertilizers, fireworks, 
explosive, alcohols, and batteries, that are essential to such 
industries as farming, medicine, manufacturing, mining, water 
purification, and entertainment industries.
    PHMSA is the agency within DOT entrusted with that mission, 
and determines what materials are hazardous, and promulgates 
and enforces, among others, the regulations that set forth the 
packaging, marking, labeling, placarding, and other 
requirements for the movement of these goods.
    Unlike other modal administrations within the DOT, PHMSA is 
unique in that its regulations apply across the modes, reaching 
to every form of commercial goods transportation. Our role is 
to ensure that these goods are moved in a safe, reliable manner 
that helps drive our continued economic growth.
    MAP-21 made several reforms and established new 
requirements for the transportation of hazmats. And I am 
looking forward to hearing about their ongoing implementation. 
A number of these requirements were important to developing new 
technologies and standards for hazmat transportation, improving 
the data collection analysis, and reporting of the agencies, 
and improving training for first responders and hazmat 
employees.
    MAP-21 also set new requirements and reviews of programs 
and processes to create more regulatory certainty, establish 
greater transparency, and cut red tape. In addition, the act 
enhanced enforcement power to ensure an already safe industry 
was made safer.
    I look forward to hearing from our witnesses, including 
PHMSA Administrator Quarterman; Mr. Downey, on behalf of the 
American Trucking Associations; Mr. Schick, of the American 
Chemistry Council; Mr. Pelkey, of the American Pyrotechnics 
Association; and Ms. Harman, with the International Association 
of Fire Fighters, regarding these issues concerning hazmat 
transportation.
    I would now like to recognize the ranking member, Corrine 
Brown from Florida, for 5 minutes for any opening statement she 
may have.
    Ms. Brown. Thank you, Mr. Chairman. The subcommittee is 
meeting today to hear testimony on reauthorization of the 
Department of Transportation hazmat program, which was last 
reauthorized in MAP-21. This hearing is very timely, because 
the purpose of this program is to protect people and the 
environment from the risks of hazardous material 
transportation.
    In just a few weeks, on April the 28th, we will observe 
Workers Memorial Day to remember those who have suffered and 
died on the job, and to renew efforts to safeguard our Nation's 
workers. Just 44 years ago, Congress passed the Occupational 
Safety and Health Act, promising every worker the right to a 
safe job. Since that time, many in Congress have fought hard to 
make this promise a reality. But our work is far from done.
    Many jobs--hazards still exist, particularly in hazardous 
material transportation. Since I was first elected to Congress, 
one issue comes up every time we authorize the hazmat program: 
the authorizing of OSHA and DOT to protect hazmat workers. Let 
me be clear. The role these two agencies play in protecting 
hazmat workers is crucial. Yet some in the industry have 
proposed to eliminate OSHA jurisdiction, claiming that there 
are overlaps and confusing regulation. This is not the case.
    DOT has regulations on packaging and on safety procedures 
for loading and unloading materials. On the other hand, OSHA 
has regulations that provide for worker safety, including noise 
and air quality control, emergency preparation, personal 
protection equipment, and hazard communications. These 
regulations are not new. DOT and OSHA have shared this 
responsibility for decades, and these regulations are critical 
to maintaining the highest level of safety for hazmat workers.
    The fact is that 12 workers die every day in our country 
from work-related injuries. In 2013 alone, more than 4,300 
workers were killed at work. I am committed to maintaining a 
safe and healthy workplace for all American workers, including 
those in this critical industry. And I will work to defeat any 
proposal that would eliminate OSHA protection for hazmat 
workers.
    In my home State of Florida, we recently had several 
dangerous explosions involving hazmat material. In July of last 
year, eight workers were in critical condition following an 
explosion at a Blue Rhino plant that was--forced an evacuation 
of area residents and shook houses 10 miles away. In July of 
2007, a devastating explosion at the T2 chemical plant located 
close to my home in Jacksonville, Florida, killed 4 people and 
injured 32.
    Not only must we ensure the safety of hazmat workers, but 
we also need to focus on the safety of those responding to 
hazmat accidents, like our Nation's firefighters. I want to 
give a special welcome to the Democratic witness from the 
International Association of Fire Fighters, Elizabeth Harman. 
With her help last Congress, we were able to enact strong 
training standards in MAP-21 for firefighters and other 
emergency responders, and ensure continuing funding for 
important firefighters training program. According to DOT, more 
than 2 million emergency responders received training through 
their program.
    With that, I welcome the witnesses and look forward to 
hearing your testimony.
    Mr. Chairman, I ask unanimous consent to include in today's 
hearing record a written statement from the Transportation 
Trades Department of AFL-CIO and 10 labor unions.
    Mr. Denham. Without objection.
    [The information follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    
    Mr. Denham. I would like to again welcome our witnesses 
here today. I ask unanimous consent that our witnesses' full 
statements be included in the record.
    [No response.]
    Mr. Denham. Without objection, so ordered. Since your 
written testimony has been made part of the record, the 
subcommittee would request that you limit your oral testimony 
to 5 minutes.
    Ms. Quarterman, you may proceed. Thank you for joining us.

    TESTIMONY OF HON. CYNTHIA L. QUARTERMAN, ADMINISTRATOR, 
PIPELINE AND HAZARDOUS MATERIALS SAFETY ADMINISTRATION; WILLIAM 
 F. DOWNEY, EXECUTIVE VICE PRESIDENT FOR CORPORATE AFFAIRS AND 
  CHIEF SECURITY OFFICER, THE KENAN ADVANTAGE GROUP, INC., ON 
BEHALF OF THE AMERICAN TRUCKING ASSOCIATIONS; THOMAS E. SCHICK, 
   SENIOR DIRECTOR OF DISTRIBUTION, REGULATORY AND TECHNICAL 
AFFAIRS, AMERICAN CHEMISTRY COUNCIL; STEPHEN PELKEY, CHAIRMAN, 
 TRANSPORTATION COMMITTEE, AMERICAN PYROTECHNICS ASSOCIATION; 
AND ELIZABETH M. HARMAN, ASSISTANT TO THE GENERAL PRESIDENT FOR 
HAZARDOUS MATERIALS, WEAPONS OF MASS DESTRUCTION TRAINING, AND 
   GRANTS ADMINISTRATION, INTERNATIONAL ASSOCIATION OF FIRE 
                            FIGHTERS

    Ms. Quarterman. Thank you for having me. Good afternoon, 
Chairman Denham, Ranking Member Brown, and members of the 
subcommittee. Thank you for inviting me here today to testify 
on PHMSA's progress in implementing Title III of the Moving 
Ahead for Progress in the 21st Century Act, also known as MAP-
21.
    Safety is the top priority for Secretary Foxx, the 
Department of Transportation, PHMSA, and all of its employees. 
All of us at DOT appreciate your dedication and leadership in 
advancing hazardous materials transportation safety. For a 
relatively small agency with limited resources, the staff at 
PHMSA works diligently to protect the American people and the 
environment from hazardous materials transportation incidents, 
and have made great strides in implementing the provisions 
included in MAP-21.
    Since MAP-21's enactment in 2012, PHMSA has met or will 
meet more than 90 percent of the established timelines for the 
32 separate provisions assigned to the agency. This is very 
significant, especially given the many challenges and emerging 
issues that PHMSA has faced over the same time period, 
including efforts to enhance the safe transportation of crude 
by rail, and continuing to consistently reduce the number of 
major hazardous materials incidents, as we have done over the 
past 25 years.
    A significant contributor to PHMSA's success has been the 
strategy and action plan we developed and implemented to 
bolster compliance with hazardous materials regulations. As the 
transportation sector continues to evolve and become more 
interconnected with the international community, PHMSA has 
attempted to adopt smarter strategies to adapt to the 
challenges.
    As part of our enforcement strategy, and through the 
authority of MAP-21, PHMSA raised its maximum civil penalty 
amount for violations resulting in death, illnesses, and 
injuries. In addition, PHMSA is moving forward with advancing 
efforts in hazardous materials research and development. Our 
hazardous materials technical assessment research and 
development and analysis program is allowing us to work 
cooperatively with stakeholders to identify and mitigate 
hazardous materials risks, and to promote innovative approaches 
to support a safe, multimodal hazardous materials 
transportation system.
    We are also working to develop uniform performance 
standards for training our hazardous materials inspectors and 
investigators to ensure field staff continue to accurately 
identify instances of noncompliance and take appropriate 
enforcement actions.
    In addition to the nonregulatory efforts to improve safety 
I just described, PHMSA is continuing to fulfill our commitment 
to streamline hazardous materials regulations and processes. 
Since 2011, PHMSA has been reviewing and analyzing special 
permits to determine which ones can be converted into the 
hazardous materials regulations. We are currently working on a 
rulemaking effort that will address the conversion of active 
special permits into regulations that we expect to be published 
by October of this year.
    These are just a few of the many actions PHMSA has 
undertaken to address and implement the mandates included in 
MAP-21. As I have stated earlier, PHMSA is committed to 
improving transportation safety, and I believe our approach is 
working. Our safety mission is guided by our vision that no 
harm results from hazardous materials transportation, and I 
truly believe our efforts will continue to prevent and mitigate 
accidents and move us closer to our goal of zero deaths and 
incidents.
    Thank you again for the opportunity to speak today. We look 
forward to continuing to work with Congress to safeguard 
people, property, and the environment from hazardous materials 
transportation risks. I would be pleased to answer any 
questions the committee may have.
    Mr. Denham. Thank you, Ms. Quarterman.
    Mr. Downey?
    Mr. Downey. Chairman Denham, Ranking Member Brown, and 
members of the subcommittee, thank you for the opportunity to 
testify today about reauthorizing the Hazardous Materials 
Transportation Act.
    My name is William Downey, and I am the executive vice 
president and chief security officer for The Kenan Advantage 
Group, which is located in North Canton, Ohio. We are North 
America's largest tank truck transporter and logistics provider 
to the petroleum, specialty products, and merchant gas 
industries. We employ approximately 9,000 people, and we are 
the only fuels delivery carrier with a nationwide presence. I 
am testifying today on behalf of the American Trucking 
Associations and the National Tank Truck Carriers. ATA and NTTC 
are members of the Interested Parties group, and endorse their 
comprehensive recommendations for hazmat reauthorization.
    Of the roughly 800,000 shipments of hazmat on a daily 
basis, in terms of product value, tonnage, and number of 
shipments, trucks move more hazmat than all other 
transportation modes, combined. Today I propose three 
commonsense solutions to improve the safe, secure, and 
efficient transport of hazmat. First, the present background 
screening process for hazmat endorsement on a commercial 
driver's license can be reformed. Second, the proposed wet 
lines rule can be halted. And, finally, the State hazmat 
permitting process can be improved.
    On background screening, presently a TSA-administered 
fingerprint-based background check is required for all hazmat 
CDL endorsements. This costs $86.50 in States that use TSA's 
contractor, but as much as $150 in States that perform the 
checks themselves. This security check is required for 
transporting all hazmat, including paint, nail polish, or 
alcohol-based products like perfume. None of those products 
pose a weaponized threat.
    Congress should limit fingerprint background checks to 
drivers transporting weaponized hazmat, also called ``security 
sensitive hazmat.'' All hazmat drivers would still be required 
to pass the relevant safety tests, as well as the name-based 
background checks. Drivers transporting security-sensitive 
hazmat would also be required to undergo a fingerprint-based 
background check before acquiring another card demonstrating 
the driver poses no terrorist threat. This proposal passed the 
House in 2009 with bipartisan support as part of the SAFE 
Truckers Act.
    To my second recommendation, wet lines are fuel-loading 
pipes used to fill and drain cargo tanks. MAP-21 banned PHMSA 
from issuing any final wet line regulation until GAO studied 
the rule. PHMSA's proposed regulation had very few benefits and 
high cost. Because of this, and the fact that better 
alternatives are available, GAO recommended withdrawing the 
rule. But, PHMSA has not done so. Instead, PHMSA has indicated 
their intent to promulgate a rule, anyway. Given GAO's finding, 
and PHMSA's refusal to withdraw the rule, a legislative ban is 
both appropriate and necessary.
    Finally, hazmat regulations forbid States from enacting any 
regulation or permit requirements that are not substantively 
the same as Federal regulations. However, States may require 
motor carriers to apply for permits to transport hazmat in 
their States. State permits are, unsurprisingly, substantively 
the same as Federal requirements. Carriers compliant with 
Federal requirements will, by definition, also be compliant 
with State requirements.
    Five States--Michigan, Nevada, Ohio, Oklahoma, and West 
Virginia--are currently members of the Alliance for Uniform 
Hazmat Transportation Procedures. The alliance States have 
amalgamated their application process online. A carrier can 
visit the site once, provide all the necessary information 
through a single interface, select the States in which the 
carrier transports hazmat, and pay a single composite fee. 
States that wish to require hazmat permits should be compelled 
to join the alliance. States already participate in similar 
programs for administering fuel taxes and processing motor 
carrier registrations.
    ATA and its members, along with The Kenan Advantage Group, 
support safe and secure transportation of hazmat. Hazmat 
regulations can be improved by reforming hazmat endorsement 
background check, forbidding PHMSA from issuing a final warning 
on the wet line rule, and compelling all States to join the 
alliance for issuing hazmat permits. All three, I believe, are 
very commonsense approaches.
    On behalf of The Kenan Advantage Group and ATA, I would 
like to thank you for this opportunity, and I would welcome any 
questions from the Members.
    Mr. Denham. Thank you, Mr. Downey.
    Mr. Schick, you may proceed.
    Mr. Schick. Good afternoon, Chairman Denham, Ranking Member 
Brown, members of the subcommittee. My name is Tom Schick, I am 
here on behalf of the American Chemistry Council. We appreciate 
this opportunity to testify on reauthorization of the Hazardous 
Materials Transportation Act.
    ACC represents the leading companies engaged in the 
business of chemistry. Our members apply the science of 
chemistry to make innovative products and services that make 
people's lives better, healthier, and safer. I would like to 
underscore the important role that the products manufactured 
and shipped by our members serve in virtually every aspect of 
our lives. The Nation depends on our industry to produce the 
chemicals that are necessary for safe drinking water, life-
saving medications, medical devices, safe and plentiful food 
supply, energy-saving solar panels, and much more.
    Our members rely on all transportation modes to deliver 
products wherever they are needed to get the job done, from 
water treatment, to farms, to factories. Because a number of 
the shipments involve hazardous materials, we work constantly 
with our transportation partners to find ways to build upon an 
already impressive safety record. Through ACC's Responsible 
Care initiative, our member and partner companies are committed 
to continuous safety improvement in every aspect of 
transportation. Collectively, we have invested billions of 
dollars in training, technology, and equipment, and will 
continue to do so.
    We have also worked to establish a strong and successful 
partnership with emergency responders. For example, our 
members, working with other stakeholders, developed 
transportation community awareness and emergency response, 
known as the TRANSCAER program. This is a voluntary training 
effort to help communities prepare for possible hazmat 
incidents.
    Emergency responders also have access to a wide range of 
experts through ACC's CHEMTREC Center. When an incident does 
take place, the center provides the information on the best way 
to handle all types of hazmat. CHEMTREC provides this service 
24 hours a day, 7 days a week, at no cost to emergency 
responders, other callers, Government, or taxpayers. We invite 
the members of the subcommittee and the staff to tour our 
CHEMTREC Center in northern Virginia, or attend a TRANSCAER 
event.
    Turning to HMTA reauthorization, we believe the Federal 
Government must continue to play the central role in ensuring 
safe transportation of hazmat. Congress has wisely established 
a comprehensive national regulatory system that is administered 
by DOT. HMTA has worked well in making the transportation of 
chemicals and other hazardous materials safe for the public, 
for workers, and emergency responders.
    As you consider legislation to reauthorize HMTA, we 
strongly support the uniform national regulatory program that 
assures that all aspects of hazmat transportation are 
consistent across this country. We also support DOT's excellent 
work in harmonizing, to the maximum extent possible, U.S. 
hazmat regulations with international standards. This 
harmonization not only facilitates commerce in these important 
products, but also promotes safety through consistent hazard 
communication requirements, and consistent procedures and 
equipment.
    We are concerned, however, about two aspects. One is the 
loading and unloading of hazardous materials. Several years 
ago, DOT withdrew from the regulation of loading and unloading 
in certain circumstances. Yet DOT, as well as others, are 
critically aware of the importance of loading and unloading in 
safety. We think that loading and unloading are fundamental to 
safe transportation, and that Federal regulation is the way to 
provide that uniformity to enhance the training of hazmat 
employees and the preparedness of emergency responders. So we 
would like to see DOT re-establish its full regulatory position 
on loading and unloading.
    Turning to special permits, these allow safety-based 
variations from the existing rules. Applicants for special 
permits come forward voluntarily with proposals, and these can 
only be approved if DOT finds there is at least an equivalent 
level of safety to what the regulations require. Special 
permits are a win-win process. The applicants gain operational 
flexibility at no loss of safety. Other parties can learn from 
and even use the same special permits, if they are approved by 
DOT to do so. And the Department learns about new procedures 
and technologies that can later be incorporated into the 
regulations. In fact, MAP-21, as mentioned earlier, has DOT 
doing that.
    There has been some talk about user fees for special 
permits. We oppose that at ACC. Special permits are an inherent 
and beneficial part of the regulatory process that governs 
hazmat transportation. We think it is appropriate to maintain 
that function without imposing user fees that could interfere 
with the development and implementation of new safety 
enhancements.
    In conclusion, the country depends on HMTA and the safe and 
reliable system to move hazmat. Where improvements are deemed 
appropriate, we can all work together to continuously improve 
it. We look forward to cooperating with you in this, and I 
would be glad to answer any questions.
    Mr. Denham. Thank you, Mr. Schick.
    Mr. Pelkey, you may proceed.
    Mr. Pelkey. Good afternoon, Chairman Denham, Ranking Member 
Brown, other members of the subcommittee. I sincerely 
appreciate the opportunity to appear before you this afternoon 
to discuss issues regarding hazardous materials 
reauthorization, an issue of vital importance to the U.S. 
fireworks industry. I am Stephen Pelkey, president and CEO of 
Atlas Advanced Pyrotechnics, headquartered in Jaffrey, New 
Hampshire. I also currently serve on the board of directors of 
the American Pyrotechnics Association, and as the chairman of 
the APA's Transportation Committee.
    Atlas was founded in 1950 and is a prominent professional 
fireworks display company, producing award-winning displays 
throughout New England the world. Atlas employs 24 full-time 
workers. During our busy Fourth of July season, our employment 
rolls swell to 750 employees.
    I am here today on behalf of the APA. APA participates in 
the Interested Parties for Hazardous Materials Transportation 
coalition, commonly referred to as the IPs. I have been tasked 
to address the IPs and APA's number-one priority, which 
concerns the Federal Motor Carrier Safety Administration's 
Hazardous Material Safety Permit Program, and the ongoing 
delays in reforming this vital program.
    The HMSP program has been seriously flawed since inception, 
and I have detailed those flaws in my written submission. At 
the present time, to retain an HMSP, a carrier must maintain 
out-of-service inspection rates for vehicle, driver, and hazmat 
violations below a set percentile. HMSP holders are judged 
against all other carriers under the vehicle and driver rates. 
However, they are judged against themselves when determining 
the hazmat out-of-service rate, which is based on violations 
that, for the most part, are not crash-causal. And this is the 
most troubling and difficult area in which to maintain 
compliance.
    Unlike large, long-haul freight of all-kind transporters 
that operate year-round and are inspected frequently, display 
fireworks transporters operate primarily on a seasonal and 
periodic peak-time basis, typically driving much shorter 
distances and many fewer miles. Thus, we have far fewer 
inspection opportunities to offset any potential violation.
    In order to stay above the designated hazmat threshold, a 
carrier must have 14 clean inspections to overcome the effects 
of just 1 bad inspection. Atlas has firsthand experience with 
this extremely flawed program, as we unfortunately lost our 
permit in 2011 as a result of receiving several erroneous out-
of-service citations that put our company above the hazmat 
disqualification threshold. Without a permit, in order for us 
to stay in business, we were forced to ship products in 
separate trucks, each legally transporting the less than 55 
pounds of fireworks, the threshold which triggers the 
application of the HMSP.
    For the better part of a year, we put 8 to 10 trucks, 
separate trucks, on the road, legally moving less than the 55 
pounds in each vehicle to each of our contracted display sites, 
as we aged out of the 12-month period to renew our permit. 
Needless to say, this placed an undue burden on our company, 
and one has to question whether public safety was enhanced by 
having multiple vehicles on the road, rather than transporting 
these products in just one vehicle.
    We appealed the erroneous paperwork-related citations to 
Federal Motor Carriers' DataQs. However, the State authority 
issuing the citation incorrectly entered the citation as ``no 
shipping papers offered.'' As Federal Motor Carrier Safety 
Administration chose to side with the State authority, rather 
than provide us with an opportunity and appropriately appeal 
the citation directly to Federal Motor Carrier.
    While we understand limited agency resources necessitate 
the delegation of enforcement to the States, we believe it is 
not appropriate that the agency has delegated its ultimate 
authority to determine whether a hazmat safety permit should be 
renewed or denied. The APA, along with several other IPs has 
been advocating for the need of an administrative process that 
would also allow Federal Motor Carrier to intervene outside of 
the DataQs. We will call this an additional level of safety 
review to determine a carrier's fitness prior to the denial of 
a permit.
    In 2011, Federal Motor Carrier agreed that the HMSP program 
was flawed, and accepted our petition for rulemaking. However, 
we are disappointed that the agency has not made reform of this 
program a priority. While the agency's recently released 
assessment report to Congress recognized the need to provide a 
means for corrective actions and/or second level of review for 
carriers, the agency does not establish a timeframe to address 
this ongoing problem.
    I am pleased to see a number of recommendations outlined in 
the assessment. Several of the recommendations, however, will 
require rulemaking, which is a lengthy process. In short, 
hazardous material safety permit holders will have no prospect 
of immediate relief. Providing HMSP holders an opportunity for 
an additional level of safety review before their permit is 
denied must be a priority.
    We are grateful to members of this subcommittee who have 
joined in efforts to reform this program. Atlas is committed to 
ensuring safety in the handling, transportation, and execution 
of our fireworks displays. Atlas and members of the APA will 
continue to provide safe and spectacular fireworks displays and 
delight and thrill American families across our great Nation.
    Mr. Denham. Thank you, Mr. Pelkey.
    Mr. Pelkey. And I thank you for this opportunity to 
testify.
    Mr. Denham. Thank you for your testimony.
    Ms. Harman?
    Ms. Harman. Good afternoon, Chairman Denham, Ranking Member 
Brown, and members of the subcommittee. My name is Elizabeth 
Harman, I serve as the assistant to the general president for 
hazmat, WMD training, and grants administration for the 
International Association of Fire Fighters. I am pleased to 
appear before you today on behalf of IFF General President 
Harold Schaitberger and the 300,000 firefighters and emergency 
medical personnel who comprise our organization.
    Fire departments in the United States receive over 350,000 
calls related to hazmat response each year. When an incident 
involving hazmat does occur, the individuals tasked with 
responding to the incident are most--almost, without fail, 
firefighters. Unfortunately, despite the potential for such an 
incident in every community in America, too many firefighters 
are insufficiently trained to ensure a safe and effective 
response.
    The reasons for the lack of properly trained firefighters 
vary, although, for the most part, it is simply a lack of 
funding. Nationwide, fire departments' funds are stretched 
thin, a situation which has been exasperated by the recent 
recession. In tight budgetary environments, training is often 
among the first items to be cut. Unfortunately, the lack of 
adequately trained personnel in the fire service means there 
are significant portions of the country where first responders 
are not prepared for an incident. This is an untenable 
situation which must be rectified.
    We must ensure that firefighters receive the type of 
training that is most appropriate for emergency response. 
Unfortunately, of the training that is being provided to 
firefighters, much is provided at an insufficient level. OSHA 
regulations identify special competencies for employees who are 
engaged in emergency response. Awareness level training is 
intended for individuals who are likely to witness or discover 
hazardous substance release, and notify the proper authorities, 
which, in most cases, would be a fire department.
    Operations level training is intended for workers who 
respond to releases or potential releases of hazardous 
substances. Their function is to contain the release from a 
safe distance, keep it from spreading, and prevent exposures. 
These regulations clearly indicate operations level training is 
the minimum level intended for firefighters. This is also 
supported by national consensus standards, such as NFPA 472. 
Providing awareness level training to firefighters is not 
sufficient. There is little point in training firefighters to 
learn how and when to call the fire department.
    Unfortunately, the number of firefighters receiving 
awareness level training, rather than operations level 
training, is growing. Congress has begun to address the 
inadequacies of hazardous materials training among 
firefighters. In MAP-21 Congress required that all training 
delivered to firefighters via PHMSA's hazardous material 
emergency preparedness grant program must be at the operations 
level or greater. While a positive step in the right direction, 
training provided via HMEP represents only a tiny fraction of 
the training received by firefighters nationwide.
    Congress should explore ways to encourage States and 
localities to provide all firefighters with operations level 
training, regardless of the funding source. We must also ensure 
that training is provided in a manner that must be customized 
and incorporate real-world events. Under the HMEP grant 
program, the IFF has received an annual grant to train 
instructors to deliver hazardous materials training to 
emergency responders nationwide in communities of all sizes. We 
have also recently, due to amendments in MAP-21, begun direct 
delivery of training, in addition to administering our train-
the-trainer program.
    We believe our training provides the best model for 
training firefighters to respond safely and effectively to 
real-world hazmat incidents. We provide training to both 
professional and volunteer fire departments at no cost to them. 
The grant has enabled the IFF to sufficiently increase training 
rates in the first responder community. The IFF's unique 
training model provides responders with real-world training in 
hazmat response that few institutions can match. Instructors 
train through the IFF's program deliver training directly to 
responders in their own communities, allowing them to tailor 
their presentations to address unique concerns or challenges 
facing a particular community, such as a specific hazmat 
shipping route.
    The IFF model also utilizes highly experienced firefighter 
instructors to each its courses in a peer-to-peer setting. 
Independent evaluations of this training have found the 
programs to be cost effective, and evaluations have found the 
instruction to be highly effective. Simply put, the IFF 
provides exemplary hazmat training at a time when first 
responders need highly effective, appropriate training more 
than ever. We encourage the subcommittee to continue funding 
this valuable program, and use it as a model when considering 
expanding training opportunities for firefighters.
    PHMSA also has an important role to play in making it 
easier for responders to identify hazardous materials. The 
paperless hazardous communications pilot program established by 
MAP-21 represents a significant step forward in the development 
and advancement of identification tools. Providing first 
responders with access to updating e-shipping papers will help 
responders identify hazardous substances during a hazmat 
incident without putting personnel at risk.
    As PHMSA continues to develop HM-ACCESS, the program's 
success will depend upon meeting certain key criteria. First, 
responders must have access to e-shipping information. HM-
ACCESS must conduct pilot tests in all forms of transportation. 
And PHMSA should consult with first responders, including rank-
and-file users, at every step of the system's development.
    This concludes my testimony, and thank you for the 
opportunity to testify today. I am happy to answer any 
questions you may have.
    Mr. Denham. Thank you, Ms. Harman. I will now recognize 
each Member for 5 minutes' worth of questioning. Mr. Young, you 
are recognized.
    Mr. Young. Thank you, Mr. Chairman. I do appreciate the 
courtesy.
    Administrator Quarterman, in the wake of the recent train 
derailments involving crude oil, the Department of 
Transportation issued a safety alert announcing that Bakken 
crude oil could be more volatile than conventional crude oil, 
and may need to be handled differently. Instead of focusing on 
the cause of the derailment, your agency seems to be 
preoccupied with the characteristics of crude oil. When crude 
oil is transported by railcar, it is labeled as group one, two, 
and three. And which of these packing group, Mr.-- Madam 
Administrator, is the most dangerous?
    Ms. Quarterman. Thank you for your question. The 
Administration is not just focused on identifying the 
characteristics of the crude oil. In fact, we have a three-part 
approach, which includes, as the very first step, prevention of 
incidents. The second is mitigation of incidents, should they 
occur. And the third is making response available to incidents.
    In terms of the packing group that is the most dangerous, 
packing group one, sir.
    Mr. Young. And Bakken oil is number two, if I am not 
mistaken. Bakken oil is two.
    Ms. Quarterman. Bakken oil may be one or two. We have seen 
from our testing----
    Mr. Young. It is two. It is two. One is the most volatile. 
Bakken oil is two.
    At the last safety hearing you said that cars are not a 
silver bullet, and we should be focused on preventing 
derailments. Yet yesterday, you publicly complained that the 
oil industry has not shared Bakken crude characteristics with 
your agency. What is the number one cause for rail--tankers to 
be derailed?
    Ms. Quarterman. I think we have been clear from the 
beginning, sir, that it is a multi--it is a very complicated 
problem which requires a comprehensive approach. Included among 
that approach are determining the characteristics of the crude. 
And, as I said at the beginning, prevention is the very first 
leg of the three-legged stool that we think will prevent this 
from occurring, and we have been working very hard----
    Mr. Young. In all due respects, madam----
    Ms. Quarterman. Sure.
    Mr. Young. In all due respects, where is the problem of any 
rail going off because of what you are carrying?
    Ms. Quarterman. [No response.]
    Mr. Young. There is none. It is at the rail. It is not the 
liquid which you are carrying in the container. This is not a 
new process.
    Ms. Quarterman. Everything has to be----
    Mr. Young. This has been going on for years and years and--
--
    Ms. Quarterman [continuing]. Considered, sir.
    Mr. Young [continuing]. Years and years, and I--my interest 
in this, we have--we transport volatile fuel in tank cars, as 
they are made today, the same cars that are used in the Bakken 
field, and yet there seems to be some interest in your agency 
to say that it is the car's fault. It is the rail's fault.
    Ms. Quarterman. I am not here to ascribe blame to anyone. I 
am here to tell you that, as a multiple--it requires multiple 
responses. It is a comprehensive approach which includes 
prevention. Yes, you are correct, we need to ensure that train 
cars stay on the track, absolutely true. But we also need to 
ensure that the package itself is appropriate, and that the 
materials that are in the package are appropriately packaged, 
and that the materials are appropriate to be shipped.
    Mr. Young. Mr. Chairman, my interest in this is this is 
another agency that doesn't understand what in the world they 
are doing. A multiple facet, and you are going to package 
something different that has been packaged all these years, and 
you say we have to have a new way, area, time of packaging 
crude oil that--makes no difference what we have been doing all 
these years. Happens to be more volume. There is probably rails 
that have been misused, and that is where we should be 
concentrating.
    And, by the way, how many of the oil companies have shared 
their data with you on Bakken oil?
    Ms. Quarterman. I believe we have received information from 
three companies so far.
    Mr. Young. It is four, but that is OK. I just--because they 
have communicated with you. And have they ever said anything 
about the cars?
    Ms. Quarterman. I beg your pardon?
    Mr. Young. Have they ever said anything about the cars?
    Ms. Quarterman. Well, as I said, I believe that there were 
three companies that provided information to us. And in terms 
of the cars, I don't understand your question.
    Mr. Young. No. What I am saying--have they ever said 
anything about the cars being inadequate to carry the fuel?
    Ms. Quarterman. Have the companies----
    Mr. Young. Yes.
    Ms. Quarterman [continuing]. Said that the cars were--I 
have no idea.
    Mr. Young. No? OK. Mr. Chairman, again, what I don't want 
to see is an agency, ``OK, we are going to have a silver 
bullet, we are going to produce new cars, double hull,'' da, 
da, da--has nothing to do with these derailments. As ex-
chairman of this committee, that is what we should be 
concentrating on, not the other stuff. Thank you, Mr. Chair.
    Mr. Denham. Thank you, Mr. Young. Ms. Brown?
    Ms. Brown. I think we need to follow up on this discussion, 
because the last meeting we had AAR said the cause was 
inadequate, and they are beginning to develop additional cars. 
But in addition to that, it really doesn't matter if your city 
explodes, whether the car was at fault or whether what they was 
carrying is at fault. We need to make sure that we do the 
multiplicity of things, including prevention. That is the first 
thing.
    But the question that I have here is that we asked the last 
time, and seeing your testimony, that the Petroleum Institute 
said that they were cooperating. I need to know. Have they 
provided you with the information that you need for the 
testing? And, if not, what is it that we need to do to make 
sure that you are getting what you need, whether it is this 
crude, the oil crude, or this new crude we using? If it kills 
you, then it is the same.
    Ms. Quarterman. Well, let me just say that we are working 
hard with all the stakeholders involved in this, and asking 
them to come to the table and cooperate with us, in terms of 
providing information, whether they be a rail industry or a 
petroleum industry.
    We have, as I mentioned, a few companies who have come 
forward, and we applaud----
    Ms. Brown. How many companies are we talking about?
    Ms. Quarterman. We have had three companies provide us 
detailed information. We have had conversations with several 
companies who have provided more anecdotal information. My 
statement went more to the American Petroleum Institute, who 
has not provided any individual information on that. They have, 
however, come forward to put together a working group to look 
at classification piece, and try to come forward with the 
standard, and we appreciate that assistance.
    Other organizations have also stepped forward: the American 
Petroleum--wait, fuel--the Association of Fuel and Petroleum 
Manufacturers have indicated that they are going to put 
together some information for us. My statement really went to 
the American Petroleum Institute, who has not supplied any data 
with respect to the characteristics of the crude. And one would 
think that they would know.
    Ms. Brown. Two questions. What, as far as the material is 
concerned, the firefighters, when we train them--and this is 
for you also, Ms. Harman--how can we make sure that they have 
the adequate equipment and training so that they can protect 
themselves when we have an explosion? We have had two in 
Florida where people were killed. And we have got to make sure 
that that does not happen.
    Ms. Harman. Thank you very much. That is an excellent 
point, and I appreciate your comments in your opening comments. 
And you may not be aware, we do have some of our instructors 
from Jacksonville, Florida, who are part of our instructor 
cadre that teach all over the United States, as well as Canada, 
with other funding sources.
    And training, for us, is key. Training for urban areas, 
rural, and suburban, is key. And there are times when our 
instructors will arrive at locations. They know they need the 
training, they have requested the training. And I can tell you 
when our instructors arrive there, they don't necessarily have 
the proper equipment to do what they need to do. And that is 
where our training model that comes into play brings those 
outside experiences, folks that have dealt with experiences--
unfortunately, like you have in Florida--to bring that to those 
smaller, rural areas, to say, ``You know what? You need this 
equipment, you need that equipment.''
    Then, the next question is, ``Where is the funding that 
comes from that?'' They are small departments working off a--
rural volunteer fire departments working off budgets of $89,000 
a year. There are large metropolitan areas that are working on 
much larger budgets. But the key to this equipment is true 
operations-based training, which, at times, is your basic 
firefighting equipment and a whole lot of water. Sometimes foam 
is at play in some of this, but if it is a running liquid that 
is going, foam is not going to eventually help that. So, our 
instructors will help guide those departments where they need 
to go.
    Ms. Brown. Ms. Quarterman, you mentioned in your testimony, 
or the last time, there are grants available. How do you let 
the community know that these grants are available for 
training, and to educate the community?
    Ms. Quarterman. Yes, there are grants available: the HMEP 
grants, which were referred to earlier. And when those grants 
come out we have a--obviously, we send out a press release, we 
tweet it around the country, we talk to individual members to 
let them know that this is available to their States and 
localities. And in this past instance, we have included a 
special provision related to crude oil.
    Let me just add to what Ms. Harman said on the firefighter 
front. We have put together a working group to talk about the 
Bakken crude in responding to those incidents. As was mentioned 
earlier, we sent out a safety alert, which was focused, in many 
ways, to the emergency response community, so that they would 
know that when they see these trainloads of crude going across 
the country, it is not crude that they may be accustomed to 
responding to. It is really a much lighter, more volatile 
crude. Thank you.
    Mr. Denham. Thank you, Ms. Brown.
    Ms. Brown. Thank----
    Mr. Denham. Mr. Hanna?
    Mr. Hanna. Thank you, Chairman. Administrator Quarterman, 
can you answer a quick question for me? Are more hazardous 
materials--meaning oil, gas, et cetera, natural gas, propane--
carried underground than over ground?
    Ms. Quarterman. I think the answer is yes.
    Mr. Hanna. So that the XL pipeline might not be a bad idea?
    Ms. Quarterman. That is not under my authority----
    Mr. Hanna. No, I realize that. I just couldn't resist.
    [Laughter.]
    Mr. Hanna. The--Mr. Pelkey--thank you. You said that you 
need 14 positive inspections to offset 1. Is that regardless of 
the size or number of trips that your particular business is 
making?
    Mr. Pelkey. Yes. There is a certain threshold that you have 
to maintain under for any hazmat type of----
    Mr. Hanna. So that--the conclusion would be that if you are 
not a big company, you may never get back to a point where you 
are making--you have made enough inspections. You may be--find 
yourself in a position where you are begging to be inspected, 
because you need to get past that 14 threshold.
    Mr. Pelkey. Correct.
    Mr. Hanna. So, shouldn't it be more flexible for somebody 
who is small, as opposed to big? I mean, does 14 fit every 
company?
    And, let's--conversely, if you are a huge company, you may 
get inspected 14 times in a day, which lets them--you know, 
they would actually be able to have an error a day, because 
they are off the hook the next day. Am I getting that----
    Mr. Pelkey. Thank you, Congressman. That is a great 
question. It is further exacerbated because most display 
companies across the country normally would perform their 
duties and their work over this July 2nd, 3rd, 4th of July, New 
Year's Eve or Labor Day. And in most cases, there aren't any 
enforcement teams that are out there that are inspecting on 
those particular----
    Mr. Hanna. So you----
    Mr. Pelkey [continuing]. Nights and weekends, and you are 
lucky to see one. If you did receive one--and sometimes you 
do--often times you wouldn't even have a hazardous material 
authorized person to inspect. Therefore, you would be going 
through the inspection process----
    Mr. Hanna. So you can't get a ticket if you beg for one on 
the wrong day.
    Mr. Pelkey. We have gone through, and several of our 
members of the American Pyrotechnics Association have gone 
through a stop, a weigh point, and begged for an inspection, 
for a hazmat inspection, and there just isn't a certified 
inspector there.
    Mr. Hanna. Mr. Schick, did you want to say something?
    Mr. Schick. I am not going to--we don't operate motor 
carriers, for the most part----
    Mr. Hanna. Right, right.
    Mr. Schick [continuing]. I am not going to join into that 
one.
    Mr. Hanna. Well, thank you very much. Chairman?
    Mr. Denham. Mr. Hanna yields back. Mr. DeFazio?
    Mr. DeFazio. Thank you, Mr. Chairman. I would--he is not 
here, but I would respectfully disagree with the former 
chairman. We need to know what materials are being carried, and 
both obviously deal with operational issues, which is FRA, and 
they are not before us today, and deal with, you know, the 
actual containment of those materials. And it does make a 
difference, in terms of the containment. It certainly makes a 
difference to the first responders, in terms of the knowledge 
of--the training and the materials to deal with that. So I 
would have some disagreement there.
    But on--Madam Administrator, on February 26th we held a 
hearing. And, as you might remember, we had some discussion. I 
was trying to find out about a potential date for rulemaking 
for the new tank cars. I am wondering what the current status 
is. Have you completed your work? Is it at the Secretary's 
office? Is it down there with the trolls at OMB? Where is it?
    Ms. Quarterman. We have made great progress since we--I 
last testified before you. We have a--shall we say a draft in 
circulation? So we are working very hard, and hoping to move 
that rule out very soon.
    Mr. DeFazio. Can we just go back to what ``very soon'' 
might mean? Not to belabor my point from the last hearing, but 
I would like--here is the issue--we have one major rail company 
looking at making a huge investment. Whether or not they will 
have a safe harbor if they go ahead with their improved tank 
car, whether or not other people will buy the AAR version, or 
whether or not people will try and make the 111's safer, 
depends upon both the rule you put forward, what it proposes, 
and what conditions it puts on the existing cars.
    Ms. Quarterman. No, I agree with that, and we have been 
having ongoing conversations with those folks, as well. So we 
know that commitments are being considered, and that is why we 
are working as fast as we possibly can to get a rule out.
    Mr. DeFazio. OK. So I am not going to get much further with 
that.
    So, there is another issue, which I actually was surprised 
by. I have been on the Aviation Subcommittee for a very long 
time, and I had no idea that the lithium batteries are 
nominally the jurisdiction of PHMSA, but have been delegated to 
FAA. And I would note that I think we are 8 years or so into a 
rulemaking, which I hope doesn't happen with tank cars. Can you 
give me any idea about what DOT is doing to harmonize our 
standards with those of ICAO, which would seem to be reasonable 
to me?
    Ms. Quarterman. Absolutely. Yes, it is actually our 
rulemaking, and we are responsible for hazmat, no matter how it 
moves, as well as operational issues related to hazmat in 
different modes. We have a rule that we are hoping to get out 
very soon to complete our harmonization with ICAO on the 
lithium battery, as well.
    Mr. DeFazio. OK. And is that rule somewhere other than in 
your agency?
    Ms. Quarterman. It is.
    Mr. DeFazio. Would it be down at OMB?
    Ms. Quarterman. I think it is all public, where it is. It 
is----
    Mr. DeFazio. Is it there? I mean you can tell me yes or no?
    Ms. Quarterman. Yes, it is.
    Mr. DeFazio. Yes. I can find it, yes.
    Ms. Quarterman. Yes.
    Mr. DeFazio. OK. I once had a colleague, Al Swift, from 
Washington State. And he described to me the people at OMB. He 
says, ``DeFazio, they are the trolls with the green eyeshades 
that hide under the bridges, and they come out and gnaw on your 
leg every once in a while.''
    I know OMB is concerned about cost effectiveness, but when 
it comes to saving lives or keeping an airplane in the air, I 
think they need to move more promptly. So now I know where to 
direct my concerns. Although, in terms of the tank car, I think 
they are still to you; in terms of lithium batteries, it is to 
OMB.
    Thank you, Mr. Chairman.
    Mr. Denham. Ms. Quarterman, the GAO report on the safety of 
wet lines raised significant concerns with the accuracy of the 
data, and found that the costs and benefits were not accurately 
presented in the proposed rule. Yet PHMSA refuses to withdraw 
proposed wet lines rule. Do you plan on withdrawing the 
proposed rule? And why, or why not?
    Ms. Quarterman. Let me just say for my friends at OMB who 
work really hard on our issues, that, you know, that they are 
supportive, I think, of safety, as well.
    On your question on wet lines, we are in the process of 
reviewing the results from the GAO study to determine--I mean 
they were critical of our regulatory evaluation, determining 
the costs and benefits associated with the wet lines rule. So 
we are still in the process of reviewing that, looking at the 
data that we have associated with that, looking at the 
recommendations that they gave to us about how we might improve 
that data.
    And then, we will determine whether we withdraw the rule or 
move forward with it. Whether we do either, we will certainly 
want to improve the safety of wet lines, whether it is through 
a rulemaking or something else. My colleague, Mr. Downey, 
mentioned that there are other options available. I welcome him 
to come talk to our staff about ways that we might improve wet 
lines in the future.
    Mr. Denham. So, just to be clear, you do not disagree with 
the GAO report.
    Ms. Quarterman. They drew some conclusions about our 
analysis, our cost benefit analysis. We are going back to look 
at their recommendations, and try to improve that, and then we 
will make a determination on how to proceed.
    Mr. Denham. Thank you. And what is your timeline on that?
    Ms. Quarterman. We don't have a timeline, that I am aware 
of, at the moment. You know, the next few months we will be 
looking at that.
    Mr. Denham. This is something you intend on either--making 
a recommendation one way or another within the next couple of 
months?
    Ms. Quarterman. Yes. We have been a little busy recently.
    Mr. Denham. Thank you. Mr. Downey, you expressed concern 
about the wet lines rulemaking. How would you propose that 
PHMSA use its resources in order to withdraw its proposed 
rulemaking?
    Mr. Downey. With the GAO report, but also the independent 
evaluation that was done. Our position is that we can take the 
dollars that would be required to retrofit our trailers, or buy 
new trailers with some type of device that would evacuate the 
wet lines, and put those dollars to training or other types of 
technologies that would prevent accidents, such as anti-
rollover stability equipment.
    Mr. Denham. Thank you. Mr. Schick, you are supportive of 
PHMSA's regulating loading and unloading of hazardous 
materials. What are the benefits PHMSA's--what are the benefits 
of PHMSA's doing so? And, specifically, will it help the 
preparedness of emergency responders?
    Mr. Schick. Mr. Chairman, we are totally supportive of 
that. As I said in the written testimony, they had somewhat 
withdrawn the application of their authority, which they pretty 
clearly have. We think that that is primarily for operational 
safety and operational efficiency of the shippers and the 
consignees who do the loading and unloading and are present 
when that happens. It is important for safety for everyone that 
the same kind of activity, say the same unloading conducted 
with the same equipment from the same, let's say, cargo tank, 
be under PHMSA's jurisdiction, so they have oversight over 
everything. It should not matter whether the person doing the 
unloading happens to be the employee of the trucking company or 
happens to be the employee of the consignee.
    I think since that happens mostly on site, it is primarily 
for those kind of operations, rather than emergency responders. 
But more fundamentally, the loading and unloading are known to 
be potential causes of accidents. So, if you are looking to 
prevent accidents, obviously you want your loading and 
unloading to be done in a safe manner. And we believe that if 
it is done in a consistent manner under Federal oversight, as 
opposed to possibly disparate ways under different State and 
local jurisdictions, that will enhance safety.
    Mr. Denham. Thank you. And can you also explain the 
concerns you have with imposing further costs on special 
permits and approvals of applicants?
    Mr. Schick. Yes, I can, sir. As I said in testimony, the 
special permit applications actually come from parties--it 
could be shippers or carriers, it could be Government agencies 
who are in the role of a shipper, for example--that have come 
up with a new way to do something. But they know, full well, it 
does not fit under the current written PHMSA regulations. So 
they come forward, they acknowledge that, they make a 
presentation to the agency, and the agency evaluates it. It 
cannot proceed to grant a special permit unless it is shown to 
be at least as protective as what the rules apply.
    If it passes that test, and it can be put into place by the 
applicant who gets a special permit, other parties who do the 
same thing can also use that, and the agency, in effect, gets 
research and development. They get new ideas brought to them, 
and they get to look at them. And then, over time, they can 
move those into the regulations. So everyone benefits.
    Mr. Denham. Thank you. Ms. Napolitano?
    Mrs. Napolitano. Thank you, sir. Ms. Quarterman, what steps 
are being taken to ensure the safe, secure shipment of chlorine 
and other toxic gases? The railroad companies recently 
partnered with DOT and TSA to put in place the procedures to 
further improve the safety and secure shipment of the gas. 
Could you share some of those procedures, quickly?
    Ms. Quarterman. I will have to get back to you for--on the 
record on that.
    Mrs. Napolitano. Would you report that back, please?
    Ms. Quarterman. Yes, absolutely.
    [The information follows:]

        Working closely with FRA and TSA, PHMSA established several 
        critical requirements to ensure safety and security of toxic 
        gas shipments. Key requirements and procedures include:

        <bullet>  Security Plans (49 CFR Sec.  172.800)--Each person 
        who offers for transportation in commerce or transports in 
        commerce a PIH material must develop and adhere to a 
        transportation security plan. The security plan must be based 
        on an assessment of the possible transportation security risks 
        for materials transported, stored, or unloaded incidental to 
        movement. Key components of the security plan include:
            <bullet>    Measures to address assessed risks regarding 
            personnel security, unauthorized access, and en route 
            security;
            <bullet>    Identification by job title of the senior 
            management official responsible for development and 
            implementation of the plan;
            <bullet>    Security duties for each position or department 
            responsible for implementing the plan; and
            <bullet>    Training for hazmat employees.

        <bullet>  Rail Routing (49 CFR Sec.  172.820)--Rail carriers 
        must assess available routes using, at a minimum, the 27 
        factors listed in Appendix D to Part 172 of the HMR to 
        determine the safest, most secure routes for security-sensitive 
        hazardous materials. These factors address safety and security 
        issues, such as the condition of the track and supporting 
        infrastructure; the presence or absence of signals; past 
        incidents; population density along the route; environmentally 
        sensitive or significant areas; venues along the route 
        (stations, events, places of congregation); emergency response 
        capability along the route; measures and countermeasures 
        already in place to address apparent safety and security risks; 
        and proximity to iconic targets. The regulations require rail 
        carriers to make conscientious efforts to develop logical and 
        defendable routing decisions using these factors.
        <bullet>  Speed Restriction by Rail (49 CFR Sec.  174.86)--For 
        trains transporting any loaded, placarded tank cars containing 
        a material poisonous by inhalation, the maximum allowable 
        operating speed is 50 mph.
        <bullet>  Enhanced Tank Car Design (49 CFR Sec. Sec.  179.100 
        and 179.102-3)--Increased tank car design standards for head 
        and shell puncture resistance, nozzles, and top fittings 
        protection.

    Mrs. Napolitano. Thank you. Mr. Schick, you were talking 
about the training of loading and unloading. That is a real 
serious issue with me. I have one of the largest corridors of 
rail transportation and truck transportation in my area. And I 
visited some of the places where they build the double wall for 
chemicals.
    My concern is that we are providing training at one of the 
local university colleges for firefighting in hazmats. But are 
we training them in the proper procedures of loading and 
unloading?
    Mr. Schick. I don't believe, ma'am, that the firefighters 
would be doing the loading and unloading. I am talking about 
the loading that happens at the production site, and the 
unloading at the receiver's site.
    Mrs. Napolitano. Right, but----
    Mr. Schick. Rather than what might happen----
    Mrs. Napolitano [continuing]. If there is a spill, the 
firefighters have to come in and help clean up. Do they not?
    Mr. Schick. If it is on--if it is outside of 
transportation, there--certainly could be called in certain 
circumstances. If it happens during transportation, obviously, 
it is out in the public space, and it is a different issue, I 
think, in that sense.
    But, again, I think the loading and unloading itself is not 
done by the emergency responders. The National Transportation 
Safety Board a number of years ago--took a very close look at 
this back in 2001--this was at the time when PHMSA was in the 
process of drawing back its regulatory authority. And the NTSB 
said in no uncertain terms that they are not convinced that if 
RSPA--it was then called RSPA, Research and Special Programs 
Administration; it is PHMSA today--relinquished its regulatory 
authority over hazardous materials loading/unloading 
operations, other Federal, State agencies would be able--they 
are concerned whether they would be able to exercise the 
necessary safety oversight of these very specific areas of 
transportation. That is why we at ACC support--and I believe 
the large Interested Parties community generally supports--the 
re-establishment of loading and unloading as primary functions 
under DOT's jurisdiction, and not to leave it to disparate 
points of view.
    Another aspect from industry is if someone is involved in 
that at a plant site, if they are going to be transferred and 
have a job opportunity elsewhere within their corporation, it 
would also be helpful--it is not a safety issue, but it would 
be helpful, not only for the company, but for the personnel, to 
be able to go somewhere else and have the same rules apply.
    Mrs. Napolitano. But are the chemical companies required to 
report on-site accidents of loading and unloading?
    Mr. Schick. I would--I think I will ask Ms. Quarterman, who 
is here. I think that when the carrier is present, the carrier 
files a 5800 report, which is the report for the unintended 
release of hazardous materials. I think what happens without 
the carrier being present--even, as I said, with exactly the 
same process and equipment, I think you may be having PHMSA 
deprive itself of exactly that kind of knowledge.
    Mrs. Napolitano. Ms. Quarterman?
    Ms. Quarterman. If there is a loading and unloading 
incident that is associated with transportation, then, yes, it 
would be reported on the 5800 report.
    Mrs. Napolitano. OK, thank you. And, Ms. Harman, how much 
placarding information should be displayed on the railcars 
carrying material? And is this important to the local folks to 
be able to know what is being transported?
    Ms. Harman. Thank you for your question. Yes, it is 
absolutely critical that we understand what is being placarded. 
Your first responders that arrive to a scene of an incident 
like that, their job is defensive operations, not just to 
recognize, but also to prevent any further damage to the 
community, whether they have to dam and dike. They have got to 
notify the community, they have got to look up that particular 
item in the ERG book, and figure out if there needs to be some 
sort of evacuation, how far that needs to be. So, yes, it is 
absolutely critical that we are able to know what is in that 
container.
    Mrs. Napolitano. Where should be the best place for 
displaying of such material that is being transported?
    Ms. Harman. Right in the public view, of where those are 
located now. In addition, if there is an incident, and that is 
an obstructed view, the shipping papers are critical for us, as 
well.
    Mrs. Napolitano. Well, that question has come up in the 
past, because there have been some instances in my area in 
years past, and there was no way of getting to the cab, to the 
front of the locomotive. And so there was a question about what 
was inherently being carried.
    Ms. Harman. Right.
    Mrs. Napolitano. Because the placarding was not sufficient.
    Ms. Harman. Right. And the key for us--you know, worst case 
scenario--I mean, obviously, the placarding needs to be there 
for us. The shipping papers need to be there for us. Even if--
when we move into an e-shipping, electronic world, you know, 
that shouldn't replace the paper shipping papers for us. There 
is always a way for us to go back to the basics. It is critical 
for firefighters.
    But if we cannot view those, it is going to be treated as 
any other flammable liquid until additional resources arrive.
    Mrs. Napolitano. Thank you, Mr. Chairman.
    Mr. Hanna [presiding]. Ms. Esty?
    Ms. Esty. Thank you, Mr. Chairman. I am really glad we are 
having this hearing today. Just last year, we had one of these 
chemical spills in Fulton Park, in one of my cities in 
Waterbury, Connecticut.
    And, again, the issues Ms. Harman has raised about the 
preparedness of those who arrive at the scene and often do not 
know what they are encountering, and have to make life-and-
death decisions immediately for a community. So I want to drill 
down a little bit more into some of those issues.
    So, Administrator Quarterman, does PHMSA currently have a 
system that can collect and analyze hazardous material incident 
data collected by emergency responders?
    Ms. Quarterman. We do not have the data that is collected 
by emergency responders. We do require reporting by anyone who 
has an incident, and we have that data, which we correlate. We 
have had conversations. My deputy is actually a former fire 
chief, and he has had conversation with several different 
firefighting organizations about what data they do collect, and 
the extent to which we might get some of that data and 
integrate it with ours, because we actually collect data not 
just for us, but for all the modes who have involvement in 
hazmat.
    Ms. Esty. So is there a reason we don't have a system that, 
as a regular course of business, collects this data?
    Ms. Quarterman. I--it is an ongoing conversation. Part of 
it has to be attributed to resources.
    Ms. Esty. All right. And following up on that, Ms. Harman 
had expressed concern about--that whatever systems are 
developed, that they need to be accessible 24 hours a day, and 
whether there is paperwork there or not. What provisions, if 
any, is--you know, is the agency looking at?
    And, in PHMSA, what is in place now to ensure that 
electronic communications are accessible in these dramatic 
incidents? It might be 2 a.m., chaos is reigning, somebody is 
trying to look at a sheet of paper and determine what these 
substances are, and what they should do.
    Ms. Quarterman. Currently, paper is the only thing that is 
available. We are in the process of putting together a pilot to 
do electronic reporting for movement of hazardous materials. We 
actually had a session last year including, most importantly, 
emergency responders, because we viewed their opinions as, you 
know, paramount, in terms of how do we move from paper to 
electronic. To what extent do we need paper? So that is an 
ongoing conversation.
    Obviously, when we have a pilot, hopefully this year, that 
will be a part of what we want to learn, a big part of what we 
want to learn, and make sure that things move smoothly.
    Ms. Esty. For Ms. Harman, I know that the National Fire 
Protection Agency estimates that 65 percent of departments that 
are responsible for responding for hazmat do not have formal 
training. What can we do in Congress? What can we do to address 
that? And, obviously, as we are seeing--as you can tell by the 
questioning about Bakken crude, we expect there are going to be 
more transportation within our borders on these issues.
    What do you recommend that we in Congress ought to be 
looking at? It is resources, obviously, some of that. But if it 
is just up to grants, I have got to tell you I represent 41 
cities and towns. Some of these towns are 4,000 people. And if 
we are leaving it up to the volunteer firefighters in Goshen, 
Connecticut, to know that there is funding available someplace, 
and a grant application maybe, that their 100 volunteers will 
get life-sustaining training, I don't think that is acceptable. 
I don't think that is acceptable for our communities, and it is 
not acceptable for our volunteers, who put their lives on the 
line. So, what should we be doing on the congressional level?
    Ms. Harman. Well, not the answer you want to hear, but 
continued funding is key for us. I mean training is key. The 
training is out there. There are multiple modes of training 
deliveries. There are fixed facility training. We are proud of 
the portable delivery training model that we bring. We have a 
strong demand for training right now. There is a wait list for 
classes that we can't even get to.
    The train-the-trainer model is important for us, 
particularly for those smaller communities. We don't see as 
many requests for train-the-trainer coming in, particularly 
now, and particularly from the smaller volunteer communities, 
because you have got folks in this economy not only trying to 
volunteer, but working multiple jobs, finding it difficult to 
do training. They take a train-the-trainer, now they have got 
to prepare themselves as an instructor to teach the rest of 
their community, and they may not have some of those larger 
scale incidents like you have had there in Waterbury to bring 
that experience into their facility.
    So, it is important, I think, for Congress to continue to, 
number one, enforce that operations level training. It should 
be the minimum level of training for all firefighters, 
regardless if they are career or volunteer, and encourage them 
to reach out to organizations. They have got to take a 
proactive approach. We are certainly there to provide training 
throughout career or volunteer. There is other funding sources 
that are there. There is online training modules that we offer. 
The resources are there, but it takes a level of effort to also 
get that.
    Ms. Esty. Also, if you could, quickly, give us your advice 
on gear, what sort of gear they ought to be looking at having.
    Ms. Harman. Gear is critical. I mean your traditional 
turnout gear for firefighters, which is your firefighting 
ensemble, a self-contained breathing apparatus, is key. A lot 
of water, a lot of hose. There has been a lot of discussion 
about foam, and foam caches set up. You know, a large-scale 
incident, I don't think any large jurisdiction is going to have 
enough foam to put out any of these. So it is really the 
traditional firefighter that you see now, if you were to call 
911 and showed up here, is the same firefighter that is 
initially going to show up on a scene like that in their 
regular turnout gear.
    Mr. Denham [presiding]. Thank you. Thank you. Mr. Michaud.
    Mr. Michaud. Thank you very much, Mr. Chairman. And I want 
to thank the panelists, as well, for testifying today. This 
question is for Ms. Harman.
    As you are aware, last summer, when the train wreck in Lac-
Megantic--the severity of that wreck. And, since then, several 
of my colleagues and I have advocated for multiple-person crews 
on freight trains, particularly those carrying hazardous 
materials or meeting trains carrying hazardous materials. We 
believe that this is a public safety issue, and the FRA 
actually believes it is a safety issue, as well. And if you 
look at past rail accidents, there are many incidents of 
multiple-person crews being able to mitigate the damage by 
separating the train from the burning cars, and being able to 
work with first responders.
    My question to you is, could you share with us your 
thoughts on how having multiple crewmembers on hazmat trains 
could improve safety and interaction with the first responders?
    Ms. Harman. Sure. We believe in multiple crews--are crucial 
for us to get the response done appropriately and efficiently. 
You know, the original driver of that train can easily be 
injured in the crash themselves. Having multiple people, 
particularly multiple people who are trained, who are trained 
to work collaboratively with the first responders so they don't 
meet for the first time at the scene of that incident, that is 
critical for us.
    Mr. Michaud. Thank you. The second question is for you, as 
well. I recently met with a mayor who is a head of the Maine 
Municipal Association and learned that many local fire 
departments only carry enough foam to extinguish a car fire. 
That would be incapable of responding to a major rail or truck 
disaster calling for additional foam from surrounding areas.
    I recognize that we probably can't ensure that every fire 
department in the country has the resources to respond to every 
kind of major disaster, but I do think that local fire 
departments should have the information to quickly locate and 
call for those additional resources in the case of an 
emergency. Is there something that we should do at the 
congressional level to facilitate this type of information 
sharing? Or do you have any ideas of what we can do, as far as 
foam, as it relates to major train wreck?
    Ms. Harman. No, that is an excellent question. We get a lot 
of questions on foam. How much is enough? How much is not 
enough? The true underlying resolve to a lot of this is pre-
planning. It is knowing who your partners are, knowing what is 
coming through your community, knowing what you need to be 
prepared for, and potentially how much.
    As I said earlier, I don't think enough foam is going to 
cover any major incident. And it has to do with the pre-
planning. And at times, really, if you are in a rural area and 
there is not an immediate threat to life or significant 
property, there is going to be a time where you are just going 
to let it burn off.
    So, you know, we are supportive of free planning, of 
collaborative training, and bringing folks together so that 
they truly--they are not meeting for the first time at the 
scene of that incident.
    Mr. Michaud. Thank you. Does anyone else on the panel want 
to address the issue about adequacy of foam, particularly if 
you are in a rural area with a major train wreck?
    Ms. Quarterman. I will just comment on the end comment from 
Ms. Harman, in that my deputy has said the same thing. It is 
not intuitive for me, not being a firefighter, but he has said, 
you know, in an instance like that, you try to get the people 
out, and you probably just let the fire burn out. So----
    Mr. Michaud. OK. Thank you, Mr. Chairman. Yield back.
    Mr. Denham. Thank you. Ms. Hahn?
    Ms. Hahn. Thank you, Mr. Chairman. Ms. Quarterman, I had an 
incident that just happened in my district in Wilmington, 
California, where 40 barrels of crude oil from a crack in an 
idle oil pipeline spewed into a residential neighborhood in 
Wilmington, California. Obviously, this spill endangered the 
health and safety of hundreds of my constituents, as well as 
caused untold amounts in property damage and cost to the local 
economy.
    And while the spill is still under investigation, 
information that we have learned so far suggests that the spill 
was caused by an internal corrosion of an idle pipeline that, 
unfortunately, still contained a lot of oil. The current owner 
of the pipeline believed that the idle pipeline was empty when 
it was received 15 years ago from the previous owner. And no 
inspection of the inside of the pipeline apparently is required 
under PHMSA or State guidelines.
    So, while there is a clear process for shutting down 
pipelines that are not intended to be used any more through the 
process of abandonment, and there is clear inspection and 
monitoring process for active pipelines, it seems to me there 
is no process for ensuring that idle, out-of-service pipelines 
that are believed to be empty, but are intended to be used 
again, are actually empty of hazardous material.
    I just feel like if at any point during this 15 years, if 
the current owner of the pipeline had verified that it was 
empty, or State officials would have verified it was empty, or 
the Federal Government would have verified it was empty, this 
spill would have never occurred. And I think it is this lack of 
verification that led to a hazardous pipeline spill and 
seriously, you know, endangered my constituents, who are 
already kind of the--on the short end of the stick, living next 
to the ports of Los Angeles and Long Beach, which is--any 
manner of hazardous event could happen on a daily basis. Also, 
this community probably sits on more pipelines than any other 
community, I believe, in southern California.
    So, am I not understanding it properly? Is there a process 
for any kind of verification of an out-of-service, idle 
pipeline, versus an active or abandoned pipeline? And, if not, 
why not? And is this a loophole that we should try to close?
    Ms. Quarterman. Well, as you know, the--this current 
situation is under investigation, so we can't really talk about 
the details of that situation. But you are right, that my 
understanding is that the pipeline was idle, as opposed to 
abandoned. Whether a pipeline is idle for 15 years, I think, is 
an open question. Certainly, if it is an abandoned pipeline, it 
should have been----
    Ms. Hahn. It has to be capped and----
    Ms. Quarterman. It has to be capped and cleaned. So that is 
something that we will follow up with you on as we go through 
the investigation----
    Ms. Hahn. Are you aware--is PHMSA aware of this kind of a 
loophole in----
    Ms. Quarterman. It is the first time I have heard anything 
about this before, so----
    Ms. Hahn. Right. I just think it is--might need to look at 
how we verify. It is all simple verification of a pipeline that 
has been deemed idle or out of service. Particularly when they 
acquire it from another company. Nobody--there was no third-
party verification that, in fact, it was empty. And while it 
may not be a lot of crude oil to the oil company, they seemed 
to scoff when I was like, ``Forty barrels before you capped 
it?'' And they were sort of like, ``That is not that much.'' 
But, obviously, in a residential neighborhood, that is an 
extreme problem and hazard and smell and----
    Ms. Quarterman. Well, it is a lot----
    Ms. Hahn. The equipment that has to come in to try to cap 
it, it was a big mess. But I feel like it might be something we 
should work together to solve.
    Ms. Quarterman. Absolutely.
    Ms. Hahn. My second question is about strengthening 
pipeline inspections. And right now, California has 5 
inspectors inspecting over 750 pipelines in the ground. 
Additionally, in accordance with PHMSA guidelines, companies, 
and not the actual inspectors themselves, are in charge of 
conducting inspections of pipeline. Inspectors are in charge of 
conducting audits of the companies' inspections. Is this the 
best process we have, going forward? And can you give me some 
assurance that we are--all pipelines are inspected in a timely 
manner?
    And how do we strengthen this current system so there is 
more accountability for the companies who have failed to 
adequately inspect their pipelines?
    Ms. Quarterman. Well, you will see in the Department's 
fiscal year 2015 budget, we have a large request for the 
pipeline safety program. Included in that is additional grant 
money for States to improve--and our inspection, I mean, the 
biggest part of that goes to our inspection force, adding many, 
many new people. So, the President's budget supports that right 
now.
    In terms of inspection--and in some ways it is a misnomer. 
I mean our staff does go out and review the documents of 
companies, but they also go out during construction, and doing 
some maintenance, so they do inspect to that.
    I think what you are referring to is an internal inspection 
of a pipeline, which is something that--the Government doesn't 
own these pipelines, so we have no way to put any equipment in 
them to verify that. So that is really reviewing the 
inspections, or the assessments that companies have performed. 
Absolutely, we need more resources.
    Ms. Hahn. Thank you. Thank you.
    Mr. Denham. Thank you. Thank you, Ms. Quarterman.
    Ms. Hahn. I yield back.
    Mr. Denham. Mr. Larsen?
    Mr. Larsen. Thank you, Mr. Chair. First off, I want to 
dispel a notion that PHMSA believes in a silver bullet 
approach. Ms. Quarterman was in my office 2\1/2\ months ago.
    And I think I am quoting you when you said, ``There is no 
silver bullet to resolving this issue.''
    But classification is part of it. Railcar safety is part of 
it. Training for first responders is part of it. There is 
probably other parts I am missing.
    But I want to understand the classification issue, because 
API was here with us last hearing and said in 6 months--not a 
2-year timeline they usually take, but a 6-month timeline they 
usually take to establish a new classification standard for 
Bakken. That is what they said. But the reports the last couple 
days seems to come across, from PHMSA's perspective, they 
expected information sooner than that.
    Am I conflating two issues, or am I--or are you--do you 
have a faster timeline than API has?
    Ms. Quarterman. There are actually two different issues. 
One, the work that API is doing is on an industry standard for 
classification, which is what they do quite frequently on 
different issues. And we have a staff person who is on that 
committee, working towards assisting in that classification 
standard. Should it be something that we agree at the end of 
the day is worthwhile, we could adopt it and put it in our 
regulations. That is one thing.
    The other thing is actual data about the attributes of the 
crude, itself. What is its initial boiling point? What is its 
flash point? What is its vapor pressure?
    Mr. Larsen. Yes, right.
    Ms. Quarterman. Those kinds of details, which Mr. Young may 
know, because he suggested this was a class II----
    Mr. Larsen. Right.
    Ms. Quarterman [continuing]. Crude, whereas we have some 
information of our own which doesn't necessarily support that.
    Mr. Larsen. OK.
    Ms. Quarterman. It could be class I or class II.
    Mr. Larsen. So you said that three companies--it could be 
four companies--have provided information. How many other 
companies have you requested information from and have not 
received information from?
    Ms. Quarterman. We went out, initially, to API and asked 
that they bring in some of their members. After that, we sort 
of expanded our reach, and we had a series of crude oil 
meetings where we invited not just API, we invited AFPM, who I 
mentioned is coming forward with some information. We also 
individually reached out to some of the biggest shippers. I 
forgot how many, I don't know if it was----
    Mr. Larsen. OK.
    Ms. Quarterman [continuing]. The top 10 or top 20, but we 
invited them all to come in and talk to us. And those who 
couldn't come, we sent a letter and said, ``If you can't come, 
we will set up a separate meeting for you, or we will call you, 
whatever we can to get as much information as possible.''
    Mr. Larsen. OK. And then, so that is where you are right 
now on trying to establish these basic data points about the 
Bakken crude. And those are--that is the basic data that you 
are trying to uncover currently.
    Ms. Quarterman. Yes. But let me just add that, you know, we 
can't wait for data from other companies or from any industry 
organization. We have been on the ground in an unprecedented 
effort, with our sister agencies, drawing crude oil from 
trains, from trucks, from pipelines, and sending it to labs and 
having it tested ourselves. So we are getting information on 
the attributes of that crude from the ground up.
    Mr. Larsen. Yes. And just--you know, as you know, in my 
district alone we have four refineries. We are moving from 
about zero gallons a day maybe last year, late last--or early 
last year, to about 12 million gallons a day of Bakken crude 
moving through the district on rail when all four facilities 
have their offload facilities built. So this has really become 
an issue quickly in our district. And part of it, part of the 
answer, has to do with firefighters.
    And, by the way, before I go further, not just the 
firefighters, all first responders, but certainly firefighters, 
Arlington Fire District and Darrington Fire District and folks 
from Clark County, Nevada; Boone County, Missouri; Colorado, 
all converging on Highway 530 to deal with the mudslide and be 
part of FEMA's incident command teams. And they are all doing a 
great job, and this last weekend they have been able to turn 
over and get some new people in, to give people some rest. And 
we appreciate what firefighters and other first responders are 
doing. I want to pass that on to you.
    And then, Mr. Schick, I want to take up your--you don't 
need to turn on the mic for this--I just want to take up your 
invitation to visit the facility, so long as you include a 
briefing on the--not just the CHEMTREC, but the----
    Mr. Schick. TRANSCAER, as well?
    Mr. Larsen. TRANSCAER as part of that. Can you do that?
    Mr. Schick. Yes.
    Mr. Larsen. Thank you so much. Yield back.
    Mr. Denham. Thank you, Mr. Larsen. Mr. Lipinski?
    Mr. Lipinski. Thank you, Mr. Chairman. I want to thank you 
and Ranking Member Brown for holding this hearing today. 
Certainly the public safety in the transport of hazardous 
materials is a very important responsibility of this 
subcommittee, so I am glad we are here to look at PHMSA's 
progress since the authorization of MAP-21.
    One area that I know we all have a great interest and 
concern about is the transport of hazardous material by rail. I 
know Mr. DeFazio had covered some of the issues already. What I 
want to focus on is the paperless manifest for trains that 
carry hazardous materials. I know it is very important, it is 
an issue that has been raised in some of the accidents that 
have occurred is the need for first responders to know what is 
on the trains in case there is an accident, and find out what 
the risk is from any material on the trains.
    So, I was happy that MAP-21, I know, had a requirement for 
PHMSA to evaluate a paperless system. And I know that right now 
the railroads themselves are working on electronic systems. As 
I raised before on this committee to the AAR, that I think more 
should be done in order to make sure that this information is 
available to first responders.
    So, I wanted to ask Administrator Quarterman. Can you tell 
me where PHMSA is right now on this requirement that was put in 
in MAP-21? And I want to know if you are working with the 
railroads at all on what they are working on doing with these 
paperless manifests.
    Ms. Quarterman. We are working with all constituents. I 
mentioned earlier we had a workshop in July of last year, and 
included the emergency responders and all of the modes to talk 
about use of this electronic format. Right now there is a 
requirement in our rule for--on rail that the train consist 
must show where the hazardous materials are on the train, and 
it must be updated if it gets moved around, so that emergency 
responders will have that knowledge, or should have that 
knowledge if they go to fight a fire at--because of hazardous 
materials.
    Mr. Lipinski. And do you anticipate PHMSA issuing any 
further regulations in the space--in rail, or any other----
    Ms. Quarterman. We are at the pilot project phase. We are 
not at the regulation phase. I mean we really need to go and do 
a few pilots, see how it works before we talk about issuing any 
regs. So we are early on.
    Mr. Lipinski. OK. Well, I just wanted to make sure that we 
continue to work on this, and as we go down the road, and make 
sure that we do have the best system in place, so that first 
responders can have adequate information.
    And, with that, I will yield back. Thank you.
    Mr. Denham. Thank you, Mr. Lipinski. Ms. Brown?
    Ms. Brown. Thank you. Ms. Quarterman, this is a yes or no 
question. Yesterday we received your statement that the 
American Petroleum Institute and its members have not been 
cooperative with your agency, and have refused to provide 
testing information with your safety experts. Is that yes or 
no?
    Ms. Quarterman. Yes.
    Ms. Brown. OK. Could you give us in writing what questions 
that you have asked them and they have not responded to, 
please?
    Ms. Quarterman. I would be happy to.
    [The information follows:]

        PHMSA posed the following questions to API and crude oil 
        shippers prior to meetings in early February.

            <bullet>  What tests or methods do you use to determine the 
            properties of the crude oil to include its vapor pressure, 
            flammable gas content, flash point, boiling point, hydrogen 
            sulfide content and corrosive properties prior to offering 
            it in transportation?
            <bullet>  Who performs these tests and how frequently are 
            they completed?
            <bullet>  When you find high levels of gases in crude, what 
            actions do you require of your oilfield personnel before 
            loading into a transport vehicle? What information about 
            the crude oil properties, if any, is provided by the 
            producers to you prior to transportation? How is this 
            information communicated?
            <bullet>  What information do you share with truck and rail 
            carriers about the crude oil properties?
            <bullet>  Are there any prescribed limits involving vapor 
            pressure, flammable gas concentration or hydrogen sulfide 
            content above which the crude oil is not placed into 
            transportation? If so, what are these limits and how are 
            they determined?

        To date, PHMSA has received some testing information from 
        individual crude oil companies but thus far the data has been 
        limited. As part of ongoing efforts, PHMSA has supported the 
        American Petroleum Institute Standards Committee initiative to 
        develop industry standards for proper sampling techniques, 
        testing criteria and frequency for crude oil. PHMSA is actively 
        participating in the discussions during working group sessions 
        and plans to continue up through expected completion in July.

    Ms. Brown. OK. Now, my next question, Mr. Downey, I was 
very involved with the wet lines issue. And, in fact, I went 
over to Baltimore to test it, you know. And I know that we are 
on tight budgets. And so, in your testimony, you said it would 
be better if you all use that money for anti-rollover 
technology, which is really the problem in the industry, and 
not the wet lines. Can you expound upon that, please?
    Mr. Downey. That is a very good point, Ranking Member 
Brown. In fact, I was in Baltimore at that hearing, as well. 
And if you look----
    Ms. Brown. And I went around----
    Mr. Downey. I know you did.
    Ms. Brown [continuing]. Before we went to the hearing.
    Mr. Downey. Yes, and one of our folks was there.
    Ms. Brown. I recommend the chairman do the same.
    Mr. Downey. I guess our point is that, looking at the cost 
benefit analysis that was done in the surveys, looking at the 
dangers of retrofitting some of the trailers--and I know that 
when you----
    Ms. Brown. I don't think your mic is on.
    Mr. Downey. It is. I believe it is----
    Ms. Brown. Well, pull it up, pull it up.
    Mr. Downey. Is that better?
    Ms. Brown. Yes, sir.
    Mr. Downey. OK, thank you. But looking at the risks to 
retrofitting the trailers--and when you were in Baltimore, I 
believe that they discussed that with you--we could take those 
dollars and minimize risk and put it into technology that would 
make the traveling public safer, keep our tractors and trailers 
on the road, with the anti-roll stability. That is our 
position. Does that answer your question?
    Ms. Brown. Yes, sir. And I would be interested in making 
sure that we get some directions to the agency in that vein, 
because, basically, in--from what I can gather, the information 
that we have gotten, that is where the problem is, and not with 
the wet lines.
    Mr. Downey. Yes. Yes, ma'am.
    Ms. Brown. OK. My last question, pertaining to making sure 
that we protect the firefighters and the first responders, 
and--do the firefighters have the gear to respond to the hazmat 
incidents? And I am particularly concerned about the crude oil, 
ethanol, and the lithium batteries. And those batteries, I 
understand, could play a major part when it comes to airplane 
crashes and other things.
    Ms. Harman. The traditional gear for--that firefighters are 
going to be wearing, donning and doffing as they show up to 
these scenes here, is your traditional turnout gear. That is 
your initial response. Your typical firefighter that is coming 
in here in their bunker jacket, their bunker boots, and their 
pants with their suspenders and their self-contained breathing 
apparatus, gloves, a lot of hose, a lot of fire--not fire--a 
lot of water. Your second set that is coming in are definitely 
going to be going more into the hot zone. Those are your 
technicians, those are your specialists. So that gear that is 
out there we believe right now is sufficient that is out there. 
There is new technologies coming out every day. We stay abreast 
of that, and there is a cost that comes to that. So we are 
always watching that to see, you know, how is this going to be 
afforded, how are these skill sets going to be acquired.
    But the gear that is there now, so long as the fire 
departments have the minimum level of what they need, and the 
training that they need to respond in an operational capacity, 
they should be pretty well set to go.
    Ms. Brown. Ms. Quarterman?
    Ms. Quarterman. Yes? You want me to answer the same 
question about gear?
    Ms. Brown. Yes.
    Ms. Quarterman. Yes, we agree that it is important. We 
would have to look at our grant language to ensure that it is 
something that we could fund through our existing HMEP grant 
program, the extent to which we can fund it.
    Ms. Brown. Is it possible to let the Members know when the 
grant applications are available?
    Ms. Quarterman. We would love to.
    Ms. Brown. So that we could make sure our communities know 
about it?
    Ms. Quarterman. Absolutely. If you don't know, we will make 
sure you know.
    Ms. Brown. Because are you saying that you put it in the 
Federal Register?
    Ms. Quarterman. We put it in the Federal Register, but we 
realize that not everybody reads that, so we have been tweeting 
it----
    Ms. Brown. And some small communities don't have a person 
that is looking for that all the time.
    Ms. Quarterman. Yes, we try to do a press release, as well. 
But we will absolutely let the Members know.
    Ms. Brown. Thank you. Thank you, Mr. Chairman.
    Mr. Denham. Thank you, Ms. Brown. Ms. Hahn?
    Ms. Hahn. Thank you, Mr. Chairman. Ms. Quarterman, one of 
the other issues I have been dealing with for a long time, even 
before I came to Congress, is that I have a facility, LPG 
tanks, which are located in San Pedro. I think they were built 
in 1976, aging facilities, they can hold up to 25 million 
gallons of LPG. I have been trying to get them moved or shut 
down for as long as I can remember. They are on private 
property, so I am struggling with what to do. But the threat of 
leakage and vaporizing and igniting and--it sits next to a 
soccer field, an elementary school, residential neighborhood.
    So, just have two things on that. One, in 1986, I guess, 
Congress passed the Emergency Planning and Community Right-to-
Know Act, EPCRA. And after 9/11, DHS came in and many of these 
highly volatile facilities now are being classified as a 
possible homeland security threat. You know, attack on one of 
them, obviously, could produce the same effect as a natural 
disaster.
    So now, that has superseded EPCRA. So now I believe a 
member of the community has to go downtown to their fire 
department, look at documents in secret, not allowed to take 
out copies of those documents, so it really has undermined, in 
my opinion, a community's right to know the kinds of hazardous 
materials and threat to their livelihood that exists in their 
community.
    Is this something that you feel like we should do a better 
job of balancing? Is this something maybe you and Jay Johnson 
could have a conversation about? Because I really do think--I 
mean I am all about homeland security, but I am also about a 
community's right to know what kind of hazardous material is in 
their neighborhood, and what they need to do to prepare 
themselves against disaster.
    Ms. Quarterman. I agree with you, and we have a similar 
effect on the pipeline side, where, as we had created, I 
think--or the agency had created very detailed maps of the 
pipeline system, and put it on the web, and almost immediately 
had to pull it down because of 9/11, I think it is worthwhile 
to have that conversation.
    I have heard that some of those things are no longer as 
covered as they used to be. There are less concerns. But I 
agree with you, the public has a right to know where these 
facilities are, and to be prepared to respond. And certainly 
emergency responders need to be prepared to respond in those 
instances. So I will take you up on that, and have a 
conversation----
    Ms. Hahn. Great. And maybe even there is a compromise in 
how they--you know, besides going downtown to a fire department 
and looking at documents in secret, is there a compromise 
there?
    Ms. Quarterman. Absolutely.
    Ms. Hahn. Yes. And the other thing, what can I tell my 
constituents in San Pedro, California, that PHMSA is doing to 
protect them from a possible leak, vapor cloud, ignite? I mean, 
the threat of something happening with 25 million gallons of 
propane and butane is just a daily concern. And we can't figure 
out which agency could help us, you know, protect the community 
against a disaster.
    Ms. Quarterman. I am not sure that we have oversight of 
that particular facility. Our oversight is to pipelines and 
things that are moving in transportation. But I would say to 
your constituency that, you know, PHMSA is a small agency with 
a huge mission, and you will see the number of incidents going 
down, down, down over time.
    Our folks are dedicated to ensuring that nothing happens, 
and we really are moving towards zero incidents. So you walk 
around every day----
    Ms. Hahn. And this facility actually has a rail line now.
    Ms. Quarterman. Yes.
    Ms. Hahn. And so this product is being----
    Ms. Quarterman. Is moving in and out.
    Ms. Hahn. Is moving by rail. So----
    Ms. Quarterman. Most of the time nothing happens. We are 
all surrounded by pipelines, by trucks moving hazardous 
materials, by trains every moment of the day. So we are talking 
about an infinitesimal possibility of something going wrong. I 
mean, really, considering the amount of----
    Ms. Hahn. If it makes them sleep better at night.
    Ms. Quarterman. I know.
    Ms. Hahn. Well, if you would take a look into this facility 
and the railcars for me, I would appreciate it.
    Ms. Quarterman. Absolutely.
    Ms. Hahn. Thank you, Mr. Chairman.
    Mr. Denham. Thank you, Ms. Hahn. Mr. Cummings?
    Mr. Cummings. Thank you very much. Ms. Quarterman, in 2009 
this committee conducted an investigation of DOT's hazmat 
program, and were made aware of an internal DOT analysis which 
showed that 60 to 90 percent of all accidents were unreported, 
and that little had been done to address it.
    The audit also found that there were several invisible 
risks where DOT had little to no data, such as LNG facility 
incidents, hazmat incidents in the maritime mode, loading and 
unloading of rail tank cars, and environmental effects of 
hazmat spills.
    Four years later, in September 2013, the GAO reported that 
DOT's incident data is still significantly flawed, raising 
concerns for what should be a data-driven agency. What is DOT 
doing to improve its hazmat data, particularly data on 
accidents and incidents?
    Ms. Quarterman. We have had, since the September of 2009, 
we have had teams working on data quality, especially with 
respect to unreported incidents. We now do our own intelligence 
gathering, if you will, for incidents that are not reported to 
us on the 5800 report. And we include those within our 
database. So we are trying to get data from as many different 
sources as possible, and include it within our system. And then 
we go out, we follow up with anybody who has not reported that 
incident.
    So I think our data quality has improved a great deal. I am 
not familiar with the GAO report that you are referring to----
    Mr. Cummings. OK.
    Ms. Quarterman [continuing]. In 2013.
    Mr. Cummings. Well, do you think we are missing--still 
missing some of these incidents and accidents?
    Ms. Quarterman. I am certain we are missing some of these. 
I mean if they are not reported any place that we are looking, 
then we are not getting that.
    You know, the--we have very recently completed a data 
report about how we might do even more to clean up our data and 
make it better. But it is a resource-intensive exercise, and we 
need more resources to be able to continue to make our data 
better.
    We put in place an IT modernization program as part of the 
response to that 2009. We have had only small pieces of that 
funded. So it is an uphill battle, but I think we are doing a 
good job at cleaning up the data.
    Mr. Cummings. Well, in your testimony you indicated that, 
pursuant to MAP-21 legislation, PHMSA adopted a new rule on 
April 17, 2013, to remove the maximum penalty for a violation 
of hazardous materials rules, and to raise from $75,000 to 
$175,000 the maximum penalty for a knowing violation, and a 
violation resulting in death, serious illness, or severe injury 
to any person, or substantial destruction of property.
    How many times over the past decade has PHMSA assessed the 
maximum penalty for either a willful violation, a violation 
that resulted in death, or injury, or substantial destruction 
of property, and how--have any such penalties been assessed 
since the enactment of the new rule?
    Ms. Quarterman. I would have to go and get that data for 
you. I can tell you that our penalty authority has gone up. And 
for the first time, I think, in many, many years, we also 
revised our penalty guidelines, which sort of circumscribe how 
much the penalties are. In my view, the penalties are still 
extremely low. But I will provide that record for you----
    Mr. Cummings. Yes.
    Ms. Quarterman [continuing]. That answer for you for the 
record.
    Mr. Cummings. How soon can you get that to me?
    Ms. Quarterman. We should be able to do it in a week or so.
    [The information follows:]

        Question: How many times over the past decade has PHMSA 
        assessed the maximum penalty for either a willful violation, a 
        violation that resulted in death, or injury, or substantial 
        destruction of property?
        Answer: Seven (three at $50,000 and four at $55,000).
        Question: Have any such penalties been assessed since the 
        enactment of the new rule?
        Answer: Zero.

    Mr. Cummings. Chairman, I yield back. Thank you very much.
    Mr. Denham. Thank you, Mr. Cummings. I want to thank each 
of our witnesses for their testimony today. If there are no 
further questions, I would ask unanimous consent that the 
record of today's hearing remain open until such time as our 
witnesses have provided answers to any questions that have been 
submitted to them in writing, and unanimous consent that the 
record remain open 15 days for any additional comments and 
information submitted by Members or witnesses to be included in 
the record of today's hearing.
    [No response.]
    Mr. Denham. Without objection, so ordered. I would like to 
thank our witnesses again for their testimony.
    If no other Members have anything to add, this subcommittee 
stands adjourned.
    [Whereupon, at 3:53 p.m., the subcommittee was adjourned.]

</pre></body></html>
